f

App. No. 20-\\Vp5

supreme Court, U.S.
FILED

FEB 1 9 2021
In the Supreme Court of the United States
Dr. Lakshmi Arunachalam, a woman,
Petitioner,
v.

CITIGROUP INC., CITICORP, CITIBANK, N.A.
Respondents,
On Petition for Writ of Certiorari to
the United States Court of Appeals for the Federal Circuit
PETITION FOR WRIT OF CERTIORARI

Dr. Lakshmi Arunachalam, a woman,
SELF-REPRESENTED PETITIONER
222 Stanford Avenue
Menlo Park, CA 94025
(650) 690-0995
(650) 854-3393 (FAX)
laks22002@yahoo.com
February 18, 2021

RECEIVED
FEB 24 2021
§MPRFMFFmURTLUSK

OFFICE OF THE CLERK

i

QUESTIONS PRESENTED
1. Whether the inferior courts arbitrarily claiming
collateral estoppel without once proving it nor
applying Supreme Court precedent dating back
more than two hundred years or 35USC §282 and
suppressing material evidence1, thereby adversely
dominating the process to prevent Dartmouth
College and Fletcher from ever coming before this
Court, constitutes denying a citizen due process
and access to the courts, violating the 1st, 5th and
1 wherein material evidence includes at least:
a. Prima facie intrinsic evidence of th terms and conditions
of the patent grant in Patent Prosecution History;
b. This Court’s own stare decisis Mandated Prohibition of
the Constitution against repudiating Government-issued
patent grant contracts, declared in Trustees of
Dartmouth College v. Woodward (1819), Grant u.
Raymond (1832), Fletcher v. Peck (1810);
c. All claims in patents-in-suit, not examined, as per
35USC §282: “Each claim of a patent (whether in
independent, dependent, or multiple dependent form)
shall be presumed valid independently of the validity of
other claims; dependent or multiple dependent claims
shall be presumed valid even though dependent upon an
invalid claim. The burden of establishing invalidity of a
patent or any claim thereof shall rest on the party
asserting such invalidity,” and must be proven with
“clear and convincing evidence.”
d. Expert opinions by Stanford’s Dr. Markus Covert and Dr.
Jay Tenenbaum proving that Petitioner’s patent claim
terms are not indefinite, nor patent claims collaterally
estopped, as per the court’s False Official Statements;
e. Witness testimony of the courts’ failure to perform their
ministerial duties to abide by their solemn oaths; and,
f. USPTO’s unconstitutionally appointed judges (APJs) to
perform the function of the Judiciary, violating the
Separation of Powers, Contract and Appointments
Clauses of the Constitution.

ii

14th Amendments, the Bill of Rights, the
Separation of Powers, Contract and Appointments
Clauses of the Constitution, anti-trust laws and 35
U.S.C. § 282.
2. Whether it is within the purview of inferior courts
and USPTO to estop a Supreme Court precedent,
estop the Constitution, and estop a citizen from
being heard without inquiry, where Supreme
Court precedent dating back more than two
hundred years collaterally estops repeatedly
fraudulent and erroneous renditions of the legal
and factual basis of a case, in False Official
Statements2 by inferior courts acting as defacto
Defendants3, thereby adversely dominating the
process, and violating basic tenets of due process
of law.
3. Whereas, it is one thing for the inferior courts and
USPTO to abuse and adversely dominate process
and procedure, and suppress material evidence
thereby defrauding inventors; and, whereas, it is
something else entirely to instigate breach of
solemn oaths against the Separation of Powers,
Appointments and Contract Clauses of the
2 The Federal Circuit willfully made false allegations that it
rejected Fletcher, Aqua Products, Patent Prosecution History
Estoppel, the Contracts Clause, Judge Andrews’ failure to
recuse, by mere mention, without stating when and on what
grounds, while glaringly omitting that Judge Andrews himself
admitted direct stock holding in a litigant JPMorgan Chase &
Co. and that the three Branches of Government violated the
Separation of Powers and Contract Clauses of the Constitution.
3 Defendants were in default, where the inferior courts put the
Defendants in dishonor to not answer the inventor’s Complaint
or Appeal

iii

Constitution, that endanger national security, to
the manifest injury of the people of the United
States, whether this Court to take any action
other than dismissing the False Official
Statements4 in the Federal Circuit’s Orders, that
lack proof and legal merit and encouraged and
resulted in - lawless action against the inventor
and the Constitution, causing the rest of the
Judiciary to follow suit, would constitute a Bill
of Attainder in violation of Art. I, Sec. 9, Cl. 3
of the United States Constitution.
4. Whether Justice Barrett, as the sole Justice with
jurisdiction, has a solemn oath duty to enforce the
Supreme Law of the Land — this Court’s own
Precedent in Trustees of Dartmouth College v.
Woodward (1819), Grant v. Raymond (1832),
Fletcher v. Peck (1810) — the Prohibition of the
Constitution from repudiating Government-issued
patent grant contracts, where Chief Justice
Roberts recused, seven Justices in silence thereof
lost subject matter jurisdiction, whereby the courts
and USPTO adversely dominated the process to
prevent Dartmouth Collese and Fletcher from ever
coming before this Court, leaving the inventor with
rights and no remedy, in violation of the

4 The allegations by the Federal Circuit in its Orders are denied
as facially and substantively flawed, and otherwise
unconstitutional, and must be dismissed with prejudice and
strict proof at time of hearing is demanded.

iv

Separation of Powers5 and Contract Clauses of the
Constitution.
5. If there is no quorum, whether Justice Barrett is
duty-bound to enforce the Supreme Law of the
Land — this Court’s stare decisis Prohibition of the
Constitution, and, must necessarily subject to
judicial inquiry against individuals charged with
the transgression, where clerks and judges have no
avenue of escape from the paramount authority of
the Constitution, when exertion of power has
overridden private rights secured by that
Constitution.
6. Where the inferior courts do not have the authority
to reject enforcing this Court’s stare decisis ruling
in “Fletcher v. Peck,” or the cast-in-stone “Patent
Prosecution History Estoppel,” or the “Contract
Clause of the Constitution”,
or to reverse the
Federal Circuit’s stare decisis Aqua Products’
ruling disparately only in the inventor’s case while

6 Congress enacted the America Invents Act for the Executive
Branch (USPTO) to perform the function of the Judiciary by
USPTO’s unconstitutionally appointed judges (APJs) in violation
of the Separation of Powers, Contract and Appointments Clause
of the Constitution— in contempt of this Court’s own stare
decisis Prohibition of the Constitution against repudiating
government-issued patent contract grants, in a corrupted re­
examination process, without considering material prima facie
intrinsic evidence — Patent Prosecution History. Congress
created the Federal Circuit in 1982 to invalidate granted patents,
in contempt of this Court’s stare decisis Prohibition — the
Supreme Law of the Land.

giving Microsoft the benefit of Aqua Products, and
much less by mere mention of the word(s)
“Fletcher” or “patent prosecution history estoppel”
or “ Contracts Clause” or “Aqua Products,” without
once providing any basis in fact or the law, and in
breach of solemn oaths to enforce this Court’s stare
decisis Prohibition of the Constitution against
repudiating patent contract grants, wherein their
Orders are downright False Official Statements, so
as to prevent Dartmouth College and Fletcher ever
coming before this Court, and defaming the
for defending the
inventor as “frivolous”
Constitution and putting them on Notice to
enforce the Supreme Law of the Land, oppressing
the inventor and making it downright hazardous,
expensive and burdensome for the inventor to have
access to the courts upon the question of due
process itself, and taking away her ECF filing
capability, all under adverse domination of process
and procedure, depriving the inventor of her 1st,
5th and 14th Amendment rights and property
rights,
whether this Court’s solemn oath duty to not give
such authority to the inferior courts to be in
contempt of the Constitution and the law, contrary
to facts and the Law of the Case — the Supreme Law
of the Land — this Court’s stare decisis Prohibition
of the Constitution, as declared in Fletcher v. Peck,
Trustees of Dartmouth College v. Woodward, Grant
v. Raymond, and patent statutes 35USC §282
makes it necessary for this Court to not be in

vi

dishonor by aiding and abetting the inferior courts’
violations of civil and criminal laws and the
Constitution, in misprision thereof, in the public’s
interest and in the interest of justice, and for
Justice Barrett, who is duty-bound, to enforce the
Supreme Law of the Land — this Court’s stare
decisis Prohibition of the Constitution, and, to
necessarily subject to judicial inquiry against
those individuals whose exertion of power has
overridden private rights secured by the
paramount authority of the Constitution from
which they have no avenue of escape.
7. Whether this Court is going to go along with the
same faulty logic as the inferior courts’ Orders,
lacking an arguable basis in law or fact and are
contrary to law, violating the 1st, 5th and 14th
Amendments, 35 U.S.C. § 282 and the Separation
of Powers, Appointments and Contract Clauses of
the Constitution or bring such lawlessness to an
end as in TC Heartland LLC v. Kraft Foods Group
Brands LLC, 581 U.S. 16-341 (1917), 137 S. Ct.
1514, wherein this Court ruled that the Court’s
stare decisis Fourco Glass Co. v. Transmirra
Products Corp., 353 U.S. 222—226 (1957) holds,
reversing the century-long refusal by the Federal
Circuit to uphold Fourco,
(a) whereas the courts and USPTO arbitrarily and
capriciously revoked
the terms and
construction of the patent grant contract cast
in stone and estopped from being revoked by

vii

the file history, contrary to this Court’s stare
decisis precedent in Festo Corp. v Shoketsu
Kinzoku Kogyo Kabushiki Co., 535 U.S. 722
(2002);
(b) whereas the inferior courts failed to specify
what is collaterally estopped, by what, in their
False Claims;
(c) whereas the inferior courts contorted their
False Claims by twistifications of what claim in
which patent;
(d) whereas the inferior courts failed to examine
213 virgin, non-examined valid claims, in
contempt of the presumption of validity of all
patent claims, as delineated in the Patent
Statute 35USC §282 [«];
(e) whereas the Federal Circuit disparately
reversed its own Aqua Products’ reversal of all
Orders that failed to consider ’’the entirety of
the record” only in the inventor’s case, but gave
Microsoft the benefit of its Aqua Products’
ruling;
(f) whereas the inferior courts “acting with an
improper purpose and to engage in conduct
knowingly and dishonestly with the specific
6 “Each claim of a patent (whether in independent, dependent,
or multiple dependent form) shall be presumed valid
independently of the validity of other claims; dependent or
multiple dependent claims shall be presumed valid even though
dependent upon an invalid claim. The burden of establishing
invalidity of a patent or any claim thereof shall rest on the party
asserting such invalidity,” and must be proven with “clear and
convincing evidence.”

viii

intent to subvert, impede, or obstruct the
proceeding.” and “acting with consciousness of
wrongdoing:”
(g) whereas the evidence the Federal Circuit court
and clerk’s office sought to deny has been
material.
(h) whereas the endeavor had the natural and
probable effect of interfering with the due
administration of justice, in violation of federal
criminal laws 18 U.S.C. §§371, 1512, 1513, and
1503, with crime in progress, requiring this
Court to compel the inferior courts and USPTO
to stop being in dishonor and dereliction of their
ministerial duties to abide by their solemn
oaths to enforce this Court’s stare decisis
Prohibition declared in Dartmouth College and
Fletcher, and to timely docket a citizen’s filings
and stop tampering with the public record and
hand over to the Hearing panel the evidence.
material to the case, which they have removed
from the docket with intent to deceive the
public and to deprive the inventor of her
property rights and constitutional rights;
(i) whereby the courts and USPTO adversely
dominated the process to prevent this Court’s
stare decisis Prohibition of the Constitution
from repudiating Government-issued patent
contract grants without compensating the
inventor, declared in Dartmouth Collese and
Fletcher from ever coming before this Court:

ix

(j) whereas the inferior courts’ Orders constitute
downright False Official Statements by
operation of law;
(k) whereas the Federal Circuit failed to grant a
citizen her protected rights to the benefits of the
equal protection of the laws and freedom to
petition the Government for redress of
grievance in violation of the 1st, 5th and 14th
Amendments to the Constitution; and,
(l) whereas the courts and USPTO oppressed a
citizen; injured 73-year old, disabled citizen’s
health, denying a citizen her fundamental right
to health and emergency medical care; and
made it expensive, hazardous and burdensome
for the citizen to have access to the court and
denied her a fair hearing and substantive and
procedural due process on the question of due
process itself, all in violation of the
Constitutional provision. See ALP VOL. 12.
CONST. LAW, CH. VII, SEC. 1, §141. With
respect to Fundamental, Substantive, and Due
Process Itself.

X

PARTIES TO THE PROCEEDINGS BELOW
Petitioner, Dr. Lakshmi Arunachalam, the inventor
and sole assignee of the patent(s)-in-suit, was the
Appellant in the court below. Dr. Lakshmi
Arunachalam is the sole Petitioner in this Court.
Respondents
CITIGROUP
INC.,
CITICORP,
CITIBANK, N.A., were the Appellees in the court
below. Daniel Brune, Dr. Sherna Madan and
Murugappan Natesan were Amicus Curiae in the
Federal Circuit.
Related Cases. This case 20-2196 (Fed. Cir.) has not
previously been before this Court.

xi

RULE 29.6 STATEMENT
Pursuant to this Court’s Rule 29.6, Dr. Lakshmi
Arunachalam is an individual and has no parent
company and no publicly held company owns 10% or
more of its stock.

xii

TABLE OF CONTENTS
QUESTIONS PRESENTED............................

1

PARTIES TO THE PROCEEDINGS BELOW
AND RELATED CASES.................................. x
RULE 29.6 STATEMENT
TABLE OF AUTHORITIES

xi
xiv

PETITION FOR WRIT OF CERTIORARI....... 1
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS, JUDICIAL CANONS AND
JUDICIAL RULES OF PROCEDURE
INVOLVED..................................................

2

STATEMENT OF THE CASE

5

BACKGROUND

5

Proceedings of the District Court and
Federal Circuit.....................................

10

FACTS, MEMORANDUM OF LAW,
PROCESS AND PROCEDURE.......

14

THE COURT MUST REVIEW THIS CASE
BECAUSE......................................................

19

xiii

Conclusion: State of the Union is

22

REASONS WHY THE WRIT SHOULD
ISSUE......................................................

24

CONCLUSION,

30

APPENDIX TABLE OF CONTENTS

31

APPENDICES
VERIFICATION
CERTIFICATE OF SELF-REPRESENTED
PETITIONER
CERTIFICATE OF SERVICE

36

xiv
TABLE OF AUTHORITIES
CASES:

Page

Ableman v. Booth,
62 U.S. 524 (1859)
Aqua Products Inc. v. Matal,
15-1177 (Fed. Cir.2017)

16

passim

Arthrex, Inc. v. Smith & Nephew, Inc.,
2018-2140, slip op. Fed. Cir.(2019)....passim
Cherrington v. Erie Ins. Property and Cas. Co.,
75 S.E. 2d. 508, 513 (W. Va, 2013).........

19

Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki
Co.,
535 U.S. 722 (2002)
passim
Fletcher v. Peck,
10 U.S. 87 (1810)

passim

Fourco Glass Co. v. Transmirra Products Corp.,
passim
353 U.S. 222-226 (1957)
Grant v. Raymond,
31 U.S. 218 (1832)

passim

Kumar v. Ovonic Battery Co., Inc. And Energy
Conversion Devices, Inc., Fed. Cir. 02-1551,
-1574, 03-1091 (2003), 351 F.3d 1364, 1368,
69. (2004).................................................................. 16

XV

Ogden v. Saunders,
25 U.S. 213 (1827)
Sterling v. Constantin,
287 U.S. 397 (1932)

passim

16

Trustees of Dartmouth College u. Woodward,
passim
17 U.S. 518 (1819)
TC Heartland LLC v. Kraft Foods Group Brands
LLC,
581 U.S. 16-341 (1917), 137 S. Ct.1514
passim
U.S. v. American Bell Telephone Company,
167 U.S. 224 (1897).............................. passim
U.S. v. Burr,
25 F. Cas. 55, 161 (CCD, Va. No. 14693)... 17
Virnetx Inc. v. Cisco Systems and USPTO
(intervenor)
Fed. Cir. (5/13/2020>

passim

STATUTES
18U.S.C. §§371, 1512, 1513, and 1503...

passim

America Invents Act....................................

passim

35 U.S.C. §282..............................................

passim

CONSTITUTIONAL AMENDMENTS
1st, 5th, 14th Amendments

passim

1

PETITION FOR WRIT OF CERTIORARI
UNDER ADVERSE DOMINATION OF
PROCESS
Petitioner Dr. Lakshmi Arunachalam, a 73-year old
disabled ethnic female of color, thought leader and
inventor of a dozen patents on the Internet of
Things (IoT) — Web Anns displayed on a Web
browser, with a priority date of 11/13/95, hereby files
this Petition for Writ of Certiorari to review the
judgment of the United States Court of Appeals for the
Federal Circuit in process disorder and tampered with
the public record, violating 18 U.S.C. §§371, 1512,
1513, and 1503.
OPINIONS BELOW
The Order of the United States Court of Appeals for
the Federal Circuit dismissing the Appeal and Order
denying Petition for En Banc Re-Hearing in
Petitioner’s Appeal Case No. 20-2196 which is an
Appeal from Case No. l:14-cv-00373-RGA (D. Del.) in
the U.S. District Court for the District of Delaware are
reproduced at App. la and App. 4a. The Order of the
U.S. District Court for the Northern District of
California is reproduced at App. 6a. The above Orders
are not published.
JURISDICTION
The Court of Appeals for the Federal Circuit entered
judgment with opinion in Petitioner’s Appeal on
11/3/20, denied Petition for En Banc Re-Hearing on
12/28/20 (App. la and App. 4a). This Court’s
jurisdiction is invoked under 28 U.S.C. § 1254(1).

2

Chief Justice Roberts recused. Seven Justices sat in
silence thereof, and lost subject matter jurisdiction.
They failed in their ministerial duty to uphold their
solemn oaths of office to enforce the Supreme Law of
the Land — this Court’s own stare decisis Prohibition
of the Constitution from repudiating Governmentissued patent grant contracts without just
compensation to the inventor, as declared by Chief
Justice Marshall in Trustees of Dartmouth College v.
Woodward, 17 U.S. 518 (1819), Grant v. Raymond, 31
U.S. 218 (1832), Fletcher v. Peck, 10 U.S. 87 (1810) —
the Law of the Case. This leaves only Justice Barrett
as the sole standing Justice with jurisdiction.
CONSTITUTIONAL AND STATUTORY
PROVISIONS, JUDICIAL CANONS AND
JUDICIAL RULES OF PROCEDURE
INVOLVED
U.S. Const.:
Separation of Powers Clause. Axts. I, II &
III; “The separation of powers ...the Legislative,
Executive, and Judicial branches of the United
States government are kept distinct in order to
prevent abuse of power.”
Contract Clause. Art. I, §10, clause 1; Art. I, §§9 &
10; “No bill of attainder or ex post facto Law shall be
passed or law impairing the obligation of contracts.”
Equal Protection of the Laws Clause.
Amend. XIV. §1: “No state shall make or enforce any
law which shall abridge the privileges or immunities
of citizens of the United States: nor... deprive any

3

person of life, liberty, or property, without due process
of law: nor deny to any person within its jurisdiction
the equal protection of the laws.”
Due Process Clause. Amends. V & XIV;
“Procedural due process is the guarantee of a fair legal
process when the government tries to interfere with a
person's protected interests in life, liberty, or
property. » u ...Supreme Court has held that procedural
due process requires that, at a minimum, the
government provide the person notice, an opportunity
to be heard at an oral hearing, and a decision by a
neutral decision maker. The Court has also ruled that
the Due Process Clause requires judges to recuse
themselves in cases where the judge has a conflict of
interest. ...Caperton v. A.T. Massey Coal Co., 556 U.S.
868 (2009). Substantive due process is the guarantee
that the fundamental rights of citizens will not be
encroached on bv government,...”
Vol. XII, Constitutional Law, Chapter 7. Sec. 140.
Erroneous and Fraudulent Decisions. Due
Process and Equal Protection of Law:
Procedure. Sec. 1. Due Process of Law. Sec. 141.
Denvins or Hinderins Access to the Courts upon
the Question of Due Process Itself.
Amend. I: “Right to Petition the Government for a
Redress of Grievances.”
42U.S.C. § 1983 Civil Rights Act;
JUDICIAL CANONS 2, 2A, 3, 3(A)(4);
FRCP Rule 60(b) (1-4 & 6);
18 U.S. C. Section 2381;
18 U.S. Code§ 2382 - Misnrision of treason:
“Whoever, owing allegiance to the United States

4

and having knowledge of the commission of
any treason against them, conceals and does not,
as soon as may be, disclose and make known the
same to the President or to some judge... is guilty
of misprision of treason...”
The Legislature’s 2011 America Invents Act
(AIA1 Re-examination Provision is a bill of
attainder that took away Petitioner/inventor’s rights
and remedies. There can be no rights without a
remedy. See infra.
Chief Justice Marshall declared in this Court’s
significant ‘First Impression Constitutional Res
Judicata precedential ruling in Fletcher v. Peck
(1810), Grant v. Raymond (1832); U.S. v. American
Bell Telephone Company, 167 U.S. 224 (1897);
Trustees of Dartmouth College v. Woodward (1819);
that a Grant is a Contract that cannot be repudiated
by the most absolute power, in accord with the
Constitution. This is the ‘Law of the Land.’ Trustees of
Dartmouth College v. Woodward (1819): “The law of
this case is the law of all... applies to contracts of
every description...” These apply the logic of sanctity
of contracts and vested rights directly to federal
grants of patents under the IP Clause. By entering
into public contracts with inventors, the federal
government must ensure what Chief Justice Marshall
described in Grant v. Raymond (1832) as a “faithful
execution of the solemn promise made by the United
States.”
In U.S. v. American Bell Telephone Company, 167
U.S. 224 (1897), Justice Brewer declared: “the contract
basis for intellectual property rights heightens the

5

federal sovernment’s obligations to protect those
rishts. ...give the federal government ‘higher rishts” to
cancel land patents than to cancel patents for
inventions.”
To uphold Patent Prosecution History is a key
contract term between the inventor and the Federal
Government/USPTO. The claim construction of claim
terms agreed to between the inventor and the Original
Examiner at the USPTO before the patent was
granted is cast in stone and cannot be changed by the
USPTO, Courts or the patentee. Federal Circuit ruled
in Aqua Products, Inc. v. Matal, Case No. 15-1177,
October 4, 2017 that Orders by Courts and
USPTO/PTAB that did not consider the “entirety of
the record”— Patent Prosecution History — are void
and reversed.
STATEMENT OF THE CASE
This case is about the courts and USPTO adversely
dominating the process to prevent Trustees of
Dartmouth College v. Woodward, 17 U.S. 518 (1819),
Grant v. Raymond, 31 U.S. 218 (1832), Fletcher v.
Peck, 10 U.S. 87 (1810) from ever coming before this
Court.
As a result, the 73-year old, disabled female inventor
of color has not had her day in Court in over a 100
cases.

BACKGROUND
Edison invented electricity. Alexander Graham Bell
invented the telephone. Petitioner, Dr. Lakshmi
Arunachalam, invented the Internet of Things (IoT) —
Web Apps displayed on a Web browser. The USPTO

6

granted her a dozen patents that have a priority date
of 1995, a time when two-way real-time Web
transactions from Web Apps were non-existent.
Examples of the inventor’s IoT machines are the
millions of Web Apps in Apple’s App Store in Apple’s
iPhone, in Google Play in Android devices, Web
banking Web Apps, healthcare Web Apps, Fitbit,
Zoom, Facebook, Twitter, social networking Web
Apps, to name a few.
The USPTO and courts made it expensive, hazardous
and burdensome for the inventor to have access to the
court; called her names without an iota of evidence;
and oppressed her to keep her silent of their failure to
enforce Dartmouth College and Fletcher. The evidence
the Federal Circuit court and clerk’s office sought to
deny has been material. The endeavor had the natural
and probable effect of interfering with the due
administration of justice, in violation of federal
criminal laws 18 U.S.C. 371, 1512, 1513, 1503, with
crime in progress, requiring this Court to stop the
inferior court clerks and judges from being in
dishonor and dereliction of their ministerial duties.
Defendants and the Government unjustly enriched
themselves by trillions of dollars by their continued,
unlicensed use of Dr. Arunachalam’s patents, and
importing infringing products from China, hurting the
domestic industry.
Judge Andrews, USPTO Administrative Judges
McNamara and Siu and the Federal Circuit attacked
the Constitution, cost the inventor her health,

7

threatened the inventor, and successfully halted this
Court from hearing Dartmouth College and Fletcher.
This Court has, in the recent past, enforced its own
precedents, in TC Heartland and Fourco. There is
nothing for the courts to consider, as Chief Justice
Marshall declared, save enforce the Constitution.
The inferior courts and USPTO propagated lies. The
Judiciary does not get a free pass to commit war on
the Constitution.
Judges and clerical officials cannot dispute that the
inferior courts’ and USPTO’s False Official
Statements and defamatory attacks on the inventor
lack proof and legal merit.
Judge Andrews and the Federal Circuit have
demonstrated beyond doubt that they will abuse their
power in adversely dominated processes and
procedures.
The Federal Circuit Orders are void ab initio as a legal
nullity that runs patently contrary to the plain
language of the Constitution. This Court must dismiss
the Federal Circuit’s False Official Statements as
moot, relating to Fletcher, Patent Prosecution History
Estoppel. Aaua Products, the Contracts Clause of the
Constitution, and refusal bv Judge Andrews to recuse.
while glaringly omitting Judge Andrews’ own
admission of direct stock holding in litigant JPMorgan
Chase & Co., and of the violation of the Separation of
Powers Clause of the Constitution bv all three
Branches of Government.

8

The Federal Circuit judges and clerks repeatedly
issued False Official Statements that were the result
of widespread and concerted fraud against the public
trust and inventors.
Judicial processes and procedures were adversely
dominated bv judges and clerks arbitrarily and
capriciously without giving the inventor due process
of law. Insufficient or no evidence exists upon which
a reasonable jurist could conclude that Petitioner was
“frivolous.” “malicious,” or “vexatious” and therefore
these were False Official Statements bv the Judiciary.
The Judiciary willfully made False Official
Statements that encouraged and resulted in — lawless
action against, the inventor and the Constitution,
causing the rest of the Judiciary to follow suit.
In all this, the Judiciary gravel endangered national
security, threatened the integrity of the legal system,
and imperiled two other coequal branches of
Government. The Judiciary betrayed their trust as
Judiciary, to the manifest injury of the people of the
United States. The allegations by the Federal Circuit
in its Orders are denied and strict proof at time of
hearing is demanded.
Petitioner avers that the Orders with false allegations
lodged against Petitioner bv the Federal Circuit are
facially and substantively flawed, and otherwise
unconstitutional, and must be dismissed with
prejudice.
1. The lack of due process included but was not
limited to the inferior courts’ failure to

9

conduct any meaningful review or other
investigation, engage in any full and fair
consideration of any evidence in support of
False Official Statements in their Orders:
The Judiciary denied Petitioner Due Process of Law
by ignoring its own procedures and precedents going
back to the mid-19th century. The inferior courts
failed to conduct any full and fair discussion by
allowing the Petitioner’s position to be heard in any
court or USPTO. The Judiciary had no reason to
dismiss the case without even a case management
conference in over a 100 cases, engage in zero
discovery or investigation, and fail to grant Petitioner,
falsely accused as frivolous for fighting for her
property and constitutional rights, her opportunity to
be heard in person or through counsel — all basic
tenets of due process of law. The Federal Circuit clerks
and judges discriminated against the inventor to
silence her about their defrauding inventors for over 2
centuries.
The inferior courts’ Orders violate the Rules and
Procedures and Practice of the Court. It piles layers of
false allegations that the Federal Circuit rejected
Fletcher, Aqua Products, Patent Prosecution History
Estoppel, the Contracts Clause, Judge Andrews’
failure to recuse, without stating when and on what
grounds, alleging multiple wrongs in a sinsle mention
of the words “Fletcher,” “Aqua Products,” “Patent
Prosecution History Estoppel,” the Contracts Clause,”
“refusal by Judge Andrews’ to recuse,” while glaringly
omitting that Judge Andrews’ himself admitted
direct stock holding in a litigant JPMorgan Chase &
Co. and that the 3 Branches of Government violated

10

the Separation of Powers Clause of the Constitution.
The Judiciary failed to adhere to its own strict Rules,
with intent to deceive, with false allegations of
collateral estoppel interwoven designed for just such
a purpose without providing any evidence to prove the
falsely alleged collateral estoppel.
2. Proceedings of the District Court and
Federal Circuit:
Petitioner filed a Patent Infringement Action against
Respondents Citigroup et al on 3/24/2014 for
infringement of Dr. Arunachalam’s patents, U.S.
Patent Nos. 5,987,500; and 8,108,492. Judge Andrews
dismissed the case on 6/18/20, after 6 years, denying
Dr. Arunachalam due process, not giving her an
opportunity to be heard, after allowing the
Respondents to go into Default without filing an
answer to the Complaint, without even an initial case
management conference. His Order is replete with
False Official Statements of a falsely alleged
collateral estoppel from void Orders by a financially
conflicted Judge Andrews who admitted to buying
direct stock in JPMorgan Chase & Co. during the
pendency of Dr. Arunachalam’s case against
JPMorgan Chase & Co., Case No 12-282RGA/SLR/RGA (D.Del.), without considering material
prima facie intrinsic evidence of Patent Prosecution
History, that proves that Dr. Arunachalam’s patent
claim terms are not indefinite and patent claims are
not invalid nor not enabled. The District Court, as
defacto Defendant, ruled in favor of Defendants
Citigroup et al, without a hearing,
without
considering material prima facie intrinsic evidence of
Patent Prosecution History, or the Law of the Case or

11

Law of the Land or enforcing this Court’s stare decisis
Precedents — the Prohibition of the Constitution from
repudiating Government-issued patent contract
grants as declared by Chief Justice Marshall in
Fletcher, Dartmouth College, on the false claim of a
falsely alleged collateral estoppel on hearsay without
any evidence, condemning without inquiry, nor
applying Patent Statute 35 U.S.C. Sec 282 and failed
to consider all the patent claims. Judge Andrews
failed to apply the Federal Circuit’s Aaua Products.
Inc, v Matal, Case No. 15-1177, Fed. Cir. October 4.
2017. ruling that reversed all Orders and decisions by
courts and PTAB that failed to consider “the entirety
of the record” — Patent Prosecution History. The
Federal Circuit dismissed the Appeal, calling Dr.
Arunachalam names, that she is “frivolous,” without
an iota of evidence in an erroneous and fraudulent
rendition of the legal and factual basis of the case,
affirmed Judge Andrews’ Order, without a hearing.
Judge Andrews’ Orders and the Federal Circuit’s
Orders are ERRONEOUS AND FRAUDULENT. The
Judiciary has now made it expensive, hazardous and
burdensome for Dr. Arunachalam to have access to
the court, in violation of the Constitutional provision.
Dr. Arunachalam is entitled to Constitutional
redress.
Judges warred against the Constitution in treasonous
breach of their solemn Oaths of Office, not enforcing
the Supreme Law(s) of the Land Mandated
Prohibition declared by Chief Justice Marshall
against repudiating Government-Issued Patent
Contract Grants by the highest authority; lost their
jurisdiction. The courts have not proven an Exemption
from the Mandated Prohibition of the Constitution.

12

The inferior courts’ Order(s) are void, predicated upon
fraudulent and erroneous renditions of the case and
the law, not consistent with Procedural Rules and
‘Law of the Case’ and ‘Law of the Land.’
“A decision produced by fraud upon the court is
not in essence a decision at all, and never
becomes final.” Kenner u. C.I.R., 387 F.2d 689
(7th Cir.1968).
The courts failed to consider that the claims of the
patents-in-suit falsely alleged as invalid are not
invalid, because the JPMorgan Court 12-282SLR/RGA (D.Del.)
failed to consider Patent
Prosecution History, which had already established
the claim construction of the terms alleged falsely as
“indefinite” by JPMorgan, as not indefinite. Based on
decision by the
this fraudulent and erroneous
JPMorgan Court procured fraudulently by JPMorgan,
and
the Fulton Court 14-490-RGA (D.Del.)
financially conflicted Judge Andrews fraudulently
concealed from the Court that Patent Prosecution
History was not considered by the JPMorgan Court or
the Fulton Court and propagated to all tribunals a
false theory of Collateral Estoppel, which is moot
because:
(i) Judge Andrews is financially conflicted, by his own
admission of buying direct stock in JPMorgan
Chase & Co. during the pendency of the case. His
Orders are void. There can be no collateral
estoppel from void Orders.
(ii) Patent Prosecution History estops all other

13

estoppels.
(iii) Federal Circuit’s Aqua Products’ reversal of
Orders that failed to consider “the entirety of the
record”----- Patent Prosecution History (which the
District Court and Federal Circuit disparatelv
failed to apply in Petitioner’s case): and
(iv)

this Court’s precedential ‘First Impression’
Constitutional Res
Judicata
Mandated
Prohibition from repudiating Government-Issued
Contract Patent Grants declared by Chief Justice
Marshall himself in Fletcher that a Grant is a
Contract and reaffirmed in Dartmouth College
(1819), Grant v. Raymond (1832), and U.S. u.
AT&T (1897).

The inferior courts failed to give Dr. Arunachalam
Equal Protection of the Laws and access to justice and
to the courts.
Judge Andrews’ Orders are void in all of Dr.
Arunachalam’s cases. PTAB Judges McNamara’s
direct stock in Microsoft and Siu’s financial conflicts
of interest with Microsoft and IBM, as disclosed in
their Financial Disclosure Statements, and failing to
recuse makes all Orders void in all the 15 IPR/CBM
re-exams and 3 CRU re-exams of Dr. Arunachalam’s
patents at the USPTO/PTAB — material prima facie
evidence Judge Andrews and PTAB Judges
McNamara and Siu lost jurisdiction: yet failed to
recuse and engaged in obstruction of justice and
oppressed Dr. Arunachalam, in Fulton Financial
Corporation Case 14-490-RGA (D.Del.) on Dr.
Arunachalam’s virgin, unadjudicated Patent, her U.S.

14

Patent No. 8,271,339 (“the ‘339 patent”) and in the
PTAB IPR/CBM Reviews and CRU re-exams of Dr.
Arunachalam’s patents. Those Orders are
NULLITIES and ANY and ALL Orders
DERIVING from those NULL and VOID Orders
are themselves NULLITIES. Judges and lawyers
repeatedly made False Official Statements and False
Claims of collateral estoppel from, void Orders and
made a false propaganda and disseminated the
FALSE CLAIM of collateral estoppel from void
Orders to every District and Appellate Court.
FACTS, MEMORANDUM OF LAW, PROCESS
AND PROCEDURE
1. Adverse Domination of Process by Federal
Circuit Court and its Clerks, making 73-year
old disabled Petitioner a victim of their
violations of federal criminal laws 18 U.S.C.
§§371, 1512, 1513, 1503, and breach of solemn
oaths by oppression and disparity, denying
her Equal Protection of the Laws:
to the prejudice of good order, discipline and justice, of
a nature to bring discredit upon the judiciary and
United States, violating federal and state civil and
criminal laws and the Constitution. Inferior courts
acted as defacto Defendant, Ordered Defendants to
not answer Petitioner’s Complaint, to Default.
dismissed the case without a hearing, and ordered
them to untimely move for attorney’s fees for not
answering the Complaint and no injury after 2 years
after appeal at the Supreme Court. Petitioner is “the
prevailing party,” not Defendants, even by the District
and Appellate Courts’ procedurallv foul process.

15

2. Courts Failed to Enter Default and Default
Judgment in Petitioner’s Favor, Upon
Request, when the Defendants Did Not File
an Answer to Petitioner’s Complaint, per
Order by District Court Judges Not to
Answer—Petitioner Won the Case by Default.
Defendants default. Clerks refuse to enter default and
default judgment. Judges dismiss the case without a
hearing. “Upon Default, all matters are settled res
judicata and stare decisis.” “Default comprises an
estoppel of all actions, administrative and judicial” by
courts, PTAB and Defendants against Petitioner.
3. Judges’ Retaliatory Ex-Actions Against
Petitioner, Maliciously, Willfully, Knowingly
And Recklessly Defamed Her As “Frivolous”
And “Malicious” Without An Iota Of
Evidence, for 73-Year Old, Disabled Inventor
Fighting For Her Property Rights And
Constitutional Rights, For Requesting The
Judges And Clerks To Do Their Ministerial
Duty To Abide by their Solemn Oaths and
Enforce The Mandated Prohibition - the Law
Of The Case And Law Of The Land And To
Consider Patent Prosecution History —
Material, Intrinsic Prima Facie Evidence
That Her Claim Terms Are Not Indefinite
And That Her Patent Claims Are Not Invalid,
As Per Stare Decisis Supreme Court
Precedents:
in Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki
Co., 535 U.S. 722 (2002); Trustees of Dartmouth
College v. Woodward, 17 U.S. 518 (1819); Grant v.
Raymond, 31 U.S. 218 (1832); Fletcher v. Peck, 10

16

U.S. 87 (1810); Arunachalam v. Lyft, 19-8029,
voiding all Orders in all of Petitioner’s Supreme
Court cases, for want of jurisdiction; Cooper v. Aaron,
358 U.S. 1 (1958); Ableman v. Booth, 62 U.S. 524
(1859); Sterling v. Constantin, 287 U.S. 397 (1932);
and per Federal Circuit precedents in Kumar v.
Ovonic Battery Co., Inc. And Energy Conversion
Devices, Inc., Fed. Cir. 02-1551, -1574, 03-1091 (2003),
351 F.3d 1364, 1368, 69. (2004); Aqua Products Inc. v.
Matal, 15-1177 (Fed. Cir.2017); Arthrex, Inc. v. Smith
& Nephew, Inc., No. 2018-2140, slip op.
agency
(Fed.Cir.10/31/2019)
applies to:
“All
actions rendered
by
those
[unconstitutionally
appointed] APJs;” Virnetx Inc. v. Cisco Systems and
USPTO (intervenor) (Fed. Cir. 5/13/2020).
4. Expert Opinions in Re-Examinations of
Petitioner’s Patents Prove She Is Not
“Frivolous” Or “Malicious.”
See Expert Opinions of Stanford’s Dr. Markus Covert
and Dr. Jay Tenenbaum in this Court Case 20-1112.
5. The Only People Who Have Been “Frivolous”
And “Malicious” Are The Adjudicators, As
Chief Justice Marshall Declared In Trustees
Of Dartmouth College V. Woodward (1819):
Courts’/PTAB’s rescinding act has the effect of an ex
post facto law and forfeits Petitioner’s estate “for a
crime NOT committed by” her, “but by the
Adjudicators”
by
their
Orders
which
“unconstitutionally impaired” the contract with the
inventor, which, “as in a conveyance of land, the court
found a contract that the grant should not be

17

revoked.” All court Orders in Petitioner’s cases violate
the U.S. Constitution, inconsistent with the “faithful
execution of the solemn promise made by the United
States” with the inventor. See Daniel Brune’s Amicus
Curiae Brief in Case 20-136, as filed in this Court
Case 20-1112. Chief Justice Marshall declared that
any acts and Orders by the Judiciary that impair the
obligation of the contract within the meaning of the
Constitution of the United States “are consequently
unconstitutional and void.” Chief Justice Marshall
declared that war was actually levied under such
circumstances in U.S. v. Burr, 25 F. Cas. 55, 161
(CCD, Va. No. 14693).
6. This Entire Case revolves around the
Judiciary Avoiding Enforcing Dartmouth
College, Fletcher, et al At All Costs. Why? —
Because Enforcing It Exposes The Entire
Patent System. Operating As A Criminal
Enterprise. Defrauding The Public.
Courts dismissed Petitioner’s Cases without a hearing
for no valid reason with False Official Statements.
Courts cannot prove Petitioner “abused the process,”
if there is even a process, much less “repeatedly” so,
as the courts collusively allege arbitrarily and
capriciously, without any evidence and have
concertedly manufactured a fact, in a pattern, with
the common objective of not enforcing Dartmouth
College, and Fletcher. Courts have been demeaning
and defaming Petitioner for no good reason and
suppressing her to silence her from exposing their
culpability and have exhibited bias in a reckless
manner. The Federal Circuit Court clerks and judges
committed overt acts of discrimination against an

18

elder, took away her ECF filing in adversely
dominated process disorder to prevent Dartmouth
College and Fletcher ever coming before this Court as
that would expose the collusive fraud of the USPTO,
the Federal Circuit and Congress in breach of public
trust in taking granted patents without just
compensation to the inventor, withheld documents
and failed to docket Petitioner’s filings, tampered with
the public record, granted her fee waiver in all of
Petitioner’s cases except in Federal Circuit case 20136, and teased and harassed her and made False
Official Statements that Petitioner’s credit cards did
not work, when she proved that they indeed worked.
7. Courts Cannot Determine That Petitioner’s
Action Was “Frivolous, Unreasonable, Or
Without Foundation."
Judges ’and Clerks’ EXACTIONS were clearly in
excess of their jurisdiction, to deprive Petitioner of her
federally protected rights — to be free from a
conspiracy "to prevent, by force, intimidation, or
threat" her First Amendment rights to Petition the
Government for Redress of Grievance; and from
deprivations "of equal protection of the laws, or of
equal privileges and immunities under the laws." The
courts have not proven bad faith or malice on
Petitioner’s part nor that any particular claim is
frivolous, nor can they.
The inferior courts’ and PTAB’s procedural
irregularities and falsely accusing Petitioner as
“vexatious” for defending the Constitution and their
cruel and unusually punitive intentions are well
documented. The courts denying Petitioner a fair
hearing to cover up their own culpability and
lawlessness — bespeaks of the courts and PTAB

19

biased against Petitioner, and not doing their solemn
oath duty to enforce the Law of the Land. Judges’
Orders of a false collateral estoppel without
considering Patent Prosecution History and without
applying stare decisis Supreme Court precedents are
not legally sound and are not precedent. Cherrington
v. Erie Ins. Property and Cas. Co., 75 S.E. 2d. 508, 513
(W. Va, 2013).
8. Special Circumstances Warrant that this
Petition for Writ of Certiorari be granted.
Judges Did Not Find Actual Injury.
Judges did not allow Petitioner a fair hearing or fair
procedural or substantive due process. Courts made it
unreasonably burdensome, downright dangerous, and
expensive for Petitioner to have access to the Court on
the question of due process itself. Courts denied
Petitioner fair access to process. Petitioner has no
evidence that courts and PTAB have not violated
Petitioner’s rights. Defendants and the Government
are unjustly enriched by trillions of dollars. Petitioner
was injured by trillions of dollars in financial damages
and personal injury to her health. Petitioner is the
aggrieved party, entitled to damages, attorneys’ fees,
not the Defendants.
THIS COURT MUST REVIEW THIS CASE
BECAUSE:
1. J. Marshall Declared: “The Law Of This Case
Is The Law Of All” in Dartmouth College u.
Woodward (1819):
“Surely, in this transaction, every ingredient of a
complete and legitimate contract is to be found.
The points for consideration are, 1. Is this contract
protected by the Constitution of the United States?

20

2. Is it impaired by the acts” of this Court?”
The answer is “yes” to both questions.
“Circumstances have not changed it. In reason, in
justice, and in law, it is now what was in 1769...
The law of this case is the law of all... The
opinion of the Court, after mature deliberation, is
that this is a contract the obligation of which
cannot be impaired without violating the
Constitution of the United States... It results from
this opinion that the acts of’ (emphasis added) the
Judiciary “are repugnant to the Constitution of the
United States, and that the judgment on this
special verdict ought to have been for the
Petitioner.”
If a doubt could exist that a grant is a contract, the
point was decided in Fletcher. If, then, a grant be a
contract within the meaning of the Constitution
of the United States, Chief Justice Marshall
declared: “these principles and authorities prove
incontrovertibly that” a patent grant “is a
contract.” And that any acts and Orders by the
Judiciary that impair the obligation of the patent
grant contract within the meaning of the Constitution
of the United States “are
consequently
unconstitutional and void.” The inferior courts’
Orders violate the U.S. Constitution. J. Marshall
declared in Fletcher: ‘Crime by the Adjudicators’:
“It would be strange if a contract to convey was
secured by the Constitution, while an absolute
conveyance
remained
unprotected... This
rescinding act” “would have the effect of an ex post

21

facto law. It forfeits the estate of’ Petitioner “for a
crime not committed by” Petitioner, but by the
Adjudicators
by
their
Orders
which
“unconstitutionally impaired” the patent grant
contract with Petitioner, which, “as in a
conveyance of land, the court found a contract that
the grant should not be revoked.”
2. Petitioner’s
Patented Inventions
Are
Mission-Critical To U. S. Government’s
Operations, Enabling The Nation To Operate
Remotely During Covid-19 And Enable
National Security.
Respondents
stole
Petitioner’s
patents
and
distributed its use to everyone including the U.S.
Government, realizing unjust enrichments in the
trillions of dollars.
The Judiciary deprived
Petitioner of the payment for each Web
transaction/per Web application in use, which it
allowed Respondents to steal.
Petitioner’s patented inventions are in ubiquitous use
worldwide, allowing Microsoft. IBM. SAP. JPMorgan
Chase & Co. and the U.S. Government to make
^trillions, including investors with stock in the above
Corporations, like Judge Richard G. Andrews, PTAB
Judges McNamara, Stephen C. Siu who refused to
recuse.
The inferior courts’ Orders violate the U.S.
Constitution, inconsistent with the “faithful execution
of the solemn promise made by the United States”
with the Petitioner/inventor.

22

The U.S. Supreme Court stated: "No ... judicial officer
can war against the Constitution without violating his
undertaking to support it." Cooper v. Aaron, 358 U.S.
1, 78 S. Ct. 1401 (1958). “If a judge does not fully
comply with the Constitution, then his orders are void,
s/he is without jurisdiction, and s/he has engaged in
an act or acts of treason.”
Conclusion: The fact of the matter — the State
of the Union — is: there is no middle ground. The
Court is not fooling anyone. The three Branches of
Government concertedly share a common objective —
to remain silent as fraud, willfully and wantonly
avoiding enforcing Dartmouth College and Fletcher
and this Court’s Governing Precedents. Why has the
Judiciary not enforced Dartmouth College and
Fletcher and this Court’s Governing Precedents? They
because enforcing Dartmouth College
know why
and Fletcher exposes the entire Patent System,
operating as a criminal enterprise, defrauding the
public.
The Federal Circuit’s decision(s) failed to enforce this
Court’s Governing Precedents and the Mandated
Prohibition from repudiating Government-issued
Patent Contract Grants as dehneated in Fletcher and
Dartmouth College and if followed, will conflict with
this Court’s precedent with respect to its findings on:
(a) the denial of liberty and property without due
process of law, and (b) violates the Separation of
Powers, Supremacy and Contract Clauses of the U.S.
Constitution in failing
to apply this Court's
precedential First
Impression' Res Judicata
Mandated Prohibition declared by Chief Justice

23

Marshall in Fletcher, Dartmouth College against
repudiating Government-Issued Patent Contract
Grants by the highest authority, reaffirmed multiple
times by this Court - the Supreme Law(s) of the Land.
3. The Judiciary injured citizens without
providing a remedy by leaving them bereft of
their vested rights directly to federal grants
of patents under the IP Clause, Contract
Clause, Separation of Powers Clause, Public
Interest/Welfare Clause, Due Process and
Equal Protections Clauses.
The inferior courts’ Orders perpetrate the
unconstitutionality of the AIA reexamination
provision, in breach of contract with inventors of their
protected rights to enjoy exclusive rights to collect
royalties for a time certain — 20 years. It is not a
“faithful execution of the solemn promise made by the
United States” to inventors.
4. Rights without Remedies:
Inferior court rulings, and the Legislature’s AIA
reexamination provision violate the “Law of the
Land;” deprived the inventor of rights without
remedies by denial of substantive and fundamental
rights
by
procedural
and
substantive
unconscionability
on
discriminating
terms,
specifically denying her the equal protection of the
Aqua Products reversal itself, still unresolved, not
applying prevention of oppression, giving superior
bargaining power to Respondents (having no reason to
tender royalties owed) in violation of Equal Protection
of the Law to inventors.

24

Significant
5. This
Involves
Case
Constitutional Issues, More Significant Than
Marbury v. Madison, 5 U.S. 137, 177 (1803).
In the case before us, the conflict of the inferior courts’
Orders and ALA Reexamination provision, with the
obligations of the contract is made the more evident
by Federal Circuit’s Aqua Products reversal of all
Orders where Patent Prosecution History (a contract
term between the inventor and the Original Examiner
before the patent was granted) was not considered.
Federal Circuit disoaratelv refused to apply its
Arthrex and 5/13/20
VirnetX rulings that
USPTO/PTAB Judges were unconstitutionally
appointed, reversing all 18 Unconstitutional
reexamination Orders, to Petitioner’s patent cases.
Lower Court ruhng(s) must be reversed as
unconstitutional.
REASON WHY THE WRIT SHOULD ISSUE
The courts and USPTO have made a concerted effort
to prevent the government from functioning the way
it should function. They committed overt crimes in
violation of federal criminal laws and six independent
violations of the Constitution. They violated the bill of
attainder. They violated due process. They betrayed
the oaths they swore to defend the United States
Constitution by impairing the obligation of contracts
in accord with the Constitution. Inventors have been
injured physically and financially for standing for our
Constitution, but they should never face such peril at

25

the hands of the USPTO, and inferior courts to hurt
innovation, and to dishonor our Constitution7.
III.

The Inferior Courts Legally Erred.

Binding Supreme Court and Federal Circuit
precedents squarely foreclose the inferior courts’
determination by financially conflicted Judges (U.S.
District Court Judge Andrews, PTAB Judges
McNamara
and
Siu)
to
disparately
deny
Petitioner/Inventor her protected rights to the
benefits of the Federal Circuit’s Arthrex and Virnetx
rulings that voided all PTAB rulings because the
PTAB Administrative Patent Judges were appointed
in violation of the Appointments Clause of the U.S.
Constitution, U.S. Const., art. II, §2, cl. 2; the Federal
7 Chief Justice Marshall declared a Government-issued “grant is
a contract,” and “The Law of this case is the law of all. ...is
applicable to contracts of all descriptions...there is nothing for
the court to act upon,” save enforce the Constitution — the
Mandated Prohibition, without impairing the obligation of
contracts in accord with the Constitution. In TC Heartland LLC
v. Kraft Foods Group Brands LLC, 581 U.S. 16-341 (1917), 137
S. Ct. 1514, the Court ruled against the Federal Circuit not
abiding by the Court’s precedential rulings in Fourco Glass Co.
v. Transmirra Products Corp., 353 U.S. 222-226 (1957) for a
century. The Court must take Judicial Notice of its own stare
decisis precedents in accord with the Contract Clause of the
Constitution. Courts have been in breach of their solemn oath
duty to enforce the Law of the Land. Why? To acknowledge
Fletcher is to admit deceiving the public for decades in a collusive
fraud between the Judiciary, USPTO, the Legislature and
Corporate Infringers. So the courts manufactured a false reason,
calling Petitioner names, that Petitioner is “malicious,”
“frivolous” and has “repeatedly abused the process,” for the
courts’ own misconduct. The courts damaged Petitioner’s pristine
reputation and impeccable credentials. Judges and clerks have
lost their immunity, in their overt criminal acts to deprive
Petitioner of her fair access to process and to the Court.

26

Circuit’s Aqua Products’ ruling that reversed all court
and PTAB rulings that did not consider “the entirety
of the record” — Patent Prosecution History; the
Supreme Court’s Festo Corp. v Shoketsu Kinzoku
Kogyo Kabushiki Co., 535 U.S. 722 (2002) ruling that
restrains the lower courts from disparately failing to
consider Patent Prosecution History in Petitioner’s
cases; and the Supreme Court’s stare decisis
prohibition of the Constitution mandated by this
Court against repudiating Government-issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land — declared by Chief
Justice Marshall in Fletcher v. Peck, 10 U.S. 87 (1810),
Trustees of Dartmouth College v. Woodward, 17 U.S.
518 (1819); Ogden v. Saunders, 25 U.S. 213 (1827);
Grant v. Raymond, 31 U.S. 218 (1832); U.S. v.
American Bell Telephone Company, 167 U.S. 224
(1897); and the courts continue in their persecution of
the Petitioner/inventor in denying her substantive
and procedural due process, denying her rights to a
neutral judge, denying her property rights and
constitutional rights, and making it expensive,
hazardous and burdensome for her to have access to
justice and to the courts on the question of due process
itself all alike violate the Constitutional provision,
ALP VOL. 12. CONST. LAW, CH. VII, SEC. 1, §141
and Petitioner is entitled to Constitutional Redress.
IV.

This is the Rare Case Where the Writ of
Certiorari is warranted.

The Government misconduct by the Judiciary, the
(USPTO/PTAB)
and
Agency
Congress’
unconstitutional America Invents Act violating the
Appointments Clause of the U.S. Constitution, U.S.
Const., art. II, §2, cl. 2., the Contract Clause and

27

Separation of Powers Clause of the Constitution and
stare decisis prohibition of the Constitution mandated
by this Court against repudiating Government issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land and suppressing
material prima facie evidence — Patent Prosecution
History that Petitioner’s patent claims are neither
invalid nor claim terms indefinite, provide a morethan sufficient basis for granting this Petition for Writ
of Certiorari. An innocent Senior Citizen, single,
disabled 73-year old female inventor of color of
significant inventions of the Internet of Things (IoT)
— Web Apps displayed on a Web browser, that have
enabled nation to function remotely during COVID,
has been the target of elder abuse, fraud and
obstruction of justice by financially conflicted Judges,
who know that the Federal Circuit was created in
1982 to invalidate granted patents contrary to the
stare decisis prohibition of the Constitution mandated
by this Court against repudiating Government-issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land, the Contract Clause
and Separation of Powers Clause of the Constitution.
The egregious Government misconduct, and the
decades-long abuse of elderly, disabled Petitioner,
injuring her physical health, subjecting her to
emotional duress, and theft of her intellectual
property and patents by Corporate Infringers aided
and abetted by the USPTO, Congress, clerks and
financially conflicted Judges, cry out for ending this
ordeal immediately and permanently.
The inferior courts’ orders reveal their plan to
obstruct justice in Petitioner’s cases indefinitely,
rubbing salt in Petitioner’s open wound from their
misconduct and threatening her with sanctions and

28

sanctioning her with cruel and unusual punishment,
falsely dubbing her “frivolous and malicious” with all
evidence pointing to the contrary, particularly for Dr.
Arunachalam defending the Constitution and asking
the
Government,
Congress,
Judiciary
and
USPTO/PTAB to enforce the Constitution and apply
this Court’s stare decisis precedents.
Petitioner has no alternative avenue of relief, her
right to relief is “clear and indisputable” and, in these
extraordinary circumstances, issuance of the writ is
not just appropriate, it follows “as a matter of course."
In Re Reyes, 814 F.2d at 168. Petitioner’s cases require
the courts to enforce the Constitution and the stare
decisis prohibition of the Constitution mandated by
this Court against repudiating Government issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land, as declared by Chief
Justice Marshall in Fletcher, Dartmouth College;
Grant v. Raymond)', et al; and the Contract Clause and
Separation of Powers Clause of the Constitution.
V. Petitioner’s Right to Relief is “Clear and
Indisputable,” and She Has no Alternative
Avenue of Relief.
Petitioner has already suffered an unimaginable
ordeal at the hands of unscrupulous, lawless,
financially conflicted Judges (Andrews, McNamara,
Siu) who have failed to enforce the law of the Land,
and a seven-year abuse of elderly, disabled female
inventor Dr. Arunachalam, injuring her physical
health, subjecting her to emotional duress, and theft
of her intellectual property and patents by Corporate
Infringers
aided and abetted by the USPTO,
Congress, judges, clerks and financially conflicted

29

Judges. She has suffered from the defamation and
libel by the courts and PTAB Judge McNamara.
Petitioner has risked her life — financial ruin, and the
mental anguish and physical injury caused by clerks
and financially conflicted Judges obstructing justice
and hindering access to the court, for which she is
entitled to Constitutional redress. All for no legitimate
reason.
The wrongful and wasteful failure to enforce Fletcher
and Dartmouth College must end. Since the inferior
courts refuse, Petitioner must ask this Court to order
the inferior courts to stop obstructing justice and to
comply with the controlling precedents of this Court
and of the Federal Circuit. The Judiciary and
USPTO/PTAB continuing in this fashion does not
serve the interests of the public or the United States
or inventors.

VI.

Issuance of the Writ is Appropriate.

Petitioner, through no fault of her own, has been
drawn into a nightmare of clerks obstructing justice
and oppressing her and Judges failing to enforce the
Law of the Land and this Court’s stare decisis
Mandated Prohibition from repudiating government
issued patent contract grants. She has been subjected
to deception, abuse, penury, obloquy, and humiliation.
Having risked her life in defending the Constitution,
she has found herself the target of elder abuse and
obstruction of justice designed to strip her of her honor
and savings, and to deprive her of her patent
properties. She has been dragged through the mud
and forced, through the artful withholding of
information material prima facie evidence of Patent
Prosecution History, crucial to the falsity of Judges’
False Official Statements that falsely allege that her

30

patent claims are indefinite and invalid. The judges
who are charged with adjudicating her case
impartially have decided to be defacto Defendants.
Equity demands an end to this nightmare and
restoration of Petitioner’s virgin patent properties and
peace of mind.
The inferior courts went so far as to sanction
Petitioner and took away her ECF filing for asking
the Court to enforce the Constitution and to enforce
the stare decisis prohibition of the Constitution
mandated by this Court against repudiating
Government issued contract grants of any kind — the
Law of the Case and the Supreme Law of the Land, as
declared by Chief Justice Marshall in Dartmouth
College, et al; and the Contract Clause, Separation of
Powers Clause and the Appointments Clause of the
U.S. Constitution, U.S. Const., art. II, §2, cl. 2.
CONCLUSION
WHEREFORE, given the plain text of the
Constitution, the intent and understanding of the
Framers, and Supreme Court precedent dating back
more than two hundred years, this Court’s
responsibility . to hear this case is clear and
unavoidable. The petition for a writ of certiorari
must be granted.
Respectfully submitted,

February 18, 2021

Dr. Lakshmi Arunachalam, Pro Se Petitioner
222 Stanford Avenue, Menlo Park, CA 94025
(650) 690-0995; laks22002@vahoo.com

31

APPENDIX TABLE OF CONTENTS
App. la: Federal Circuit Order of dismissal
(11/3/20)
.App. la
App. 4a: Federal Circuit En Banc Rehearing
Order (12/28/20)
App. 4a
App. 6a: District Court Order
(6/18/20)................................................. App. 6a
App. 7a: District Court Memorandum
(6/18/20)................................................. App. 7a

36

VERIFICATION
In accordance with 28 U.S.C. Section 1746,1 declare
under penalty of perjury that the foregoing is true
and correct based upon my personal knowledge.

Dr. Lakshmi Arunachalam, a woman
Self-Represented Petitioner
Executed on February 18, 2021
222 Stanford Ave,
Menlo Park, CA 94025
650 690 0995
laks22002@yahoo.com

